oi WES? 1,

'1‘

5

State of West Virginia
Office of the Attorney General
Patrick Morrisey
Attorney General

(304) 558-2021
Fax (304) 558-0140

May 26, 2021

By Electronic Filing and Electronic Mail
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, NE
Washington, DC 20543
Re:

West Virginia v. Environmental Protection Agency, et al., No. 20-1530 (U.S.)

Dear Mr. Harris:

As counsel of record for Petitioner in West Virginia v. Environmental Protection Agency,
et al., No. 20-1530 (U.S.), I am writing to grant blanket consent to the filing of a brief amicus
curiae with respect to certiorari by any person or entity, provided that it is filed within the time
allowed by the rules of this Court. This consent applies without regard to the position taken or
the party being supported by the brief.
Sincerely,

/s/ Lindsay S. See
Lindsay S. See
cc:

Jacob M. Roth
Counselfor Petitioner North American Coal Corporation (by electronic mail)
Elizabeth B. Prelogar
Benjamin Carlisle
Counselfor Respondents (by electronic mail)

State Capitol Building 1, Room E-26, 1900 Kanawha Boulevard East, Charleston, WV 25305

